Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    CMS RESPONSE TO
      BREACHES AND
  MEDICAL IDENTITY THEFT




                    Daniel R. Levinson
                     Inspector General

                      October 2012
                     OEI-02-10-00040
CMS RESPONSE TO BREACHES AND MEDICAL IDENTITY THEFT
OEI-02-10-00040


WHY WE DID THIS STUDY

The Centers for Medicare & Medicaid Services (CMS) maintains the protected health
information of millions of Medicare beneficiaries. If a breach occurs and the security or
privacy of this information is compromised, CMS is required by the American Recovery
and Reinvestment Act (the Recovery Act) to notify the affected beneficiaries. Such
breaches can lead to medical identity theft. Medical identity theft is the appropriation or
misuse of a patient’s or a provider’s medical identifying information (such as a Medicare
identification number) to fraudulently obtain or bill for medical care. It can create patient
safety risks and impose financial burdens on those affected. Medical identity theft may
also lead to significant financial losses for the Medicare Trust Funds and taxpayers.

HOW WE DID THIS STUDY

We determined the extent to which CMS’s response to breaches met the notification
requirements in the Recovery Act. We also assessed CMS’s response to medical identity
theft involving beneficiary and provider Medicare identification numbers and the
remedies it offers to beneficiaries and providers. We based this study on CMS data on
breaches, CMS policies and procedures, CMS’s compromised number database, and
structured interviews with CMS staff and benefit integrity contractors.

WHAT WE FOUND

CMS reported that it had 14 breaches of protected health information requiring
notification under the Recovery Act between September 23, 2009, and December 31,
2011. CMS notified the 13,775 Medicare beneficiaries affected by the breaches, but did
not meet several Recovery Act requirements. CMS has made progress in responding to
medical identity theft by developing a compromised number database for contractors.
However, the database’s usefulness could be improved. Further, contractors do not
consistently develop edits to stop payments on compromised numbers. Lastly, CMS
offers some remedies to providers but fewer to beneficiaries affected by medical identity
theft.

WHAT WE RECOMMEND

We recommend that CMS: (1) ensure that breach notifications meet Recovery Act
requirements, (2) improve the compromised number database, (3) provide guidance to
contractors about using database information and implementing edits, (4) develop a
method for ensuring that beneficiaries who are victims of medical identity theft retain
access to needed services, and (5) develop a method for reissuing identification numbers
to beneficiaries affected by medical identity theft. CMS concurred with all but the draft
report’s fourth recommendation, which we revised as stated above.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................7
           CMS had 14 breaches requiring notification under the
           Recovery Act ....................................................................................7
           CMS notified beneficiaries of the breaches, but did not meet
           several Recovery Act requirements .................................................8
           CMS has made progress in responding to medical identity theft
           by developing a compromised number database for contractors .....9
           CMS contractors do not consistently develop edits to stop
           payments on compromised numbers .............................................. 11
           CMS offers some remedies to providers but fewer to
           beneficiaries affected by medical identity theft .............................12
Conclusion and Recommendations ............................................................14
           Agency Comments and Office of Inspector General Response.....16
Appendix: Agency Comments ..................................................................17
Acknowledgments......................................................................................21
                  OBJECTIVES
                  1. To determine the extent to which the Centers for Medicare & Medicaid
                       Services’ (CMS) response to breaches of beneficiaries’ protected
                       health information met the notification requirements in the American
                       Recovery and Reinvestment Act of 2009 (the Recovery Act).
                  2. To assess CMS’s response to medical identity theft involving
                       beneficiary and provider Medicare identification numbers and the
                       remedies it offers to beneficiaries and providers.

                  BACKGROUND
                  CMS maintains the protected health information of millions of Medicare
                  beneficiaries, storing, receiving, and transmitting it daily. 1 If CMS has a
                  breach of unsecured (or unencrypted) protected health information, it is
                  required by the Recovery Act to notify the affected beneficiaries. 2 A
                  breach is defined by the Recovery Act as the “unauthorized acquisition,
                  access, use, or disclosure of protected health information which
                  compromises the security or privacy of such information.” 3 Breaches of
                  health information can lead to medical identity theft.
                  Medical identity theft is the appropriation or misuse of a patient’s or a
                  provider’s medical identifying information (such as a Medicare
                  identification number) to fraudulently obtain or bill for medical care,
                  prescription drugs, or supplies. It can affect beneficiaries or providers.
                  Such theft can create patient safety risks and impose financial burdens on
                  those affected. It can lead to erroneous entries in beneficiaries’ medical
                  histories and even to the wrong medical treatment. Medical identity theft
                  may also lead to significant financial losses for the Medicare Trust Funds
                  and taxpayers.
                  In previous reports, the Office of Inspector General (OIG) and the
                  Government Accountability Office (GAO) identified gaps and weaknesses


                  1
                    The phrase “protected health information” is defined by regulation to mean, with some
                  exceptions, identifying information created or received by an employer or a health care entity
                  that relates to an individual’s physical or mental health condition and is transmitted or
                  maintained in any medium. See 45 CFR § 160.103.
                  2
                    While CMS also maintains the health information of Medicaid beneficiaries, which is
                  subject to Recovery Act breach notification requirements, this report is limited to breaches of
                  Medicare information.
                  3
                    The Recovery Act, P.L. 111-5 § 13400(1). Title XIII of the Recovery Act is also referred to
                  as the Health Information Technology for Economic and Clinical Health Act, or the HITECH
                  Act. The Department of Health and Human Services (HHS) implemented the breach
                  notification requirements at 45 CFR Pt. 164, subpart D.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                          1
                  in the information security procedures of CMS and its contractors. 4 To
                  date, no evaluation has examined CMS’s breach notification procedures or
                  determined how many breaches involving beneficiaries’ protected health
                  information have occurred. There has also been no evaluation of CMS’s
                  efforts to respond to medical identity theft involving Medicare beneficiary
                  or provider identification numbers.
                  Breach Notification
                  The Recovery Act requires covered entities—such as health care providers
                  and plans—and their business associates to notify an individual whose
                  unsecured protected health information 5 has been or is reasonably
                  believed to have been accessed, acquired, or disclosed as a result of a
                  breach. 6 An example of a breach that would require notification under the
                  Recovery Act is the loss of a CMS laptop containing unencrypted
                  Medicare beneficiary identification numbers.
                  The Recovery Act requirements became effective on September 23, 2009. 7
                  As a covered entity, CMS is subject to these requirements. 8 CMS’s
                  contractors are considered business associates 9 and are required to inform
                  CMS of any breaches and provide the information necessary for CMS to
                  make the required notifications to affected individuals. 10
                  The notification requirements pertain to breaches of beneficiaries’
                  protected health information; provider Medicare identification numbers
                  are not covered by the Recovery Act notification requirements. These
                  numbers are not “protected health information” because they do not relate
                  to the provider’s health status.
                  The Recovery Act requires that notification to each affected individual
                  include:
                       •    a description of what happened, including the dates of both the
                            breach and its discovery, if known;
                       •    the type(s) of unsecured protected health information involved;

                  4
                    OIG, Review of Medicare Contractor Information Security Program Evaluations for Fiscal
                  Year 2009, A-18-10-30300, September 2011. GAO, Information Security: Department of
                  Health and Human Services Needs to Fully Implement Its Program, GAO-06-267,
                  5February 2006.
                    Unsecured protected health information is protected health information that has not been
                  rendered unusable, unreadable, or indecipherable to unauthorized individuals using methods
                  approved by the Secretary.
                  6
                    The Recovery Act §§ 13402 and 13404; see also 45 CFR §§ 164.404(a) and 164.410.
                  7
                    74 Fed. Reg. 42740 (Aug. 24, 2009). Publication of the final rule is pending.
                  8
                    45 CFR § 160.103; CMS Program Memorandum, Transmittal AB-03-034 (February 28,
                  2003).
                  9
                    CMS Program Memorandum, Transmittal AB-03-034 (February 28, 2003).
                  10
                     The Recovery Act § 13402(b); 45 CFR § 164.410.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                      2
                       •    steps individuals should take to protect themselves from potential
                            harm;
                       •    a description of how the covered entity is investigating the breach,
                            mitigating losses, and protecting against further breaches; and
                       •    contact procedures for individuals who want to learn more. 11
                  In general, affected individuals must be notified by first-class mail,
                  “without unreasonable delay,” and no more than 60 days after the breach
                  has been discovered. 12
                  In addition, covered entities must notify HHS of any breaches not later
                  than 60 days after the end of the calendar year during which the breach
                  occurred. 13 HHS must in turn identify the covered entity involved in the
                  breach on its Web site. 14 If any breach affects 500 or more residents of a
                  State or jurisdiction, the covered entity must also notify prominent media
                  outlets in the area. 15 The notification to media outlets must contain the
                  same information as the notification to individuals. 16 In these cases,
                  notification must also be provided to HHS contemporaneously with
                  individual notification. 17
                  Medical Identity Theft
                  Breaches may lead to medical identity theft. Medical identity theft is the
                  misuse of provider or beneficiary medical identifying information. An
                  example of medical identity theft occurs when someone obtains
                  unencrypted Medicare identification numbers of beneficiaries and uses
                  them to submit false claims to CMS. This is against Federal law, which
                  prohibits using another person’s identification to make false statements
                  when seeking payment under a Federal health care program. 18
                  CMS Contractors
                  CMS relies on contractors to review and pay claims. These contractors
                  maintain the protected health information of Medicare beneficiaries as part
                  of their duties. As business associates of CMS, they are required by the
                  Recovery Act to inform the agency if they commit any breaches of this
                  information. They are also involved in CMS’s efforts to identify and


                  11
                     The Recovery Act § 13402(f); 45 CFR § 164.404(c).
                  12
                     The Recovery Act §§ 13402(d)(1) and 13402(e)(1); 45 CFR § 164.404. Section 13402(g)
                  of the Recovery Act allows for a delay of notification for law enforcement purposes.
                  13
                     The Recovery Act § 13402(e)(3); 45 CFR § 164.408(c).
                  14
                     The Recovery Act § 13402(e)(4).
                  15
                     The Recovery Act § 13402(e)(2); 45 CFR § 164.406(a).
                  16
                     45 CFR § 164.406(c).
                  17
                     45 CFR § 164.408.
                  18
                     18 U.S.C. § 1028A(a) and 42 U.S.C. § 1320a–7b.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                  3
                  respond to medical identity theft involving Medicare beneficiary or
                  provider information.
                  Contractors have a range of duties. Zone Program Integrity Contractors
                  (ZPIC) conduct Part A- and Part B-related benefit integrity activities. 19
                  They recommend claims processing edits to suspend or deny potentially
                  improper payments, including those that result from medical identity theft.
                  They are also responsible for identifying and investigating potential fraud.
                  Medicare Drug Integrity Contractors (MEDIC) conduct Part C- and
                  Part D-related benefit integrity activities. 20 Their work includes analyzing
                  Part D prescription claims data and reviewing beneficiary complaints to
                  prevent the payment of fraudulent claims. They recommend appropriate
                  administrative actions to CMS, which may include denying or recouping
                  fraudulent payments. Hereinafter, we refer to the MEDICs and ZPICs
                  collectively as “benefit integrity contractors.”
                  Compromised Number Database
                  CMS’s compromised number database, first released in February 2010,
                  contains beneficiaries’ and providers’ Medicare identification numbers that
                  have been involved in, or are suspected of having been involved in,
                  medical identity theft and those that are vulnerable to medical identity
                  theft. Medicare identification numbers of beneficiaries are also known as
                  Health Insurance Claim numbers. In this report, we refer to Medicare
                  identification numbers of beneficiaries as “beneficiary numbers.”
                  Medicare identification numbers of providers are also known as National
                  Provider Identifiers. In this report, we refer to Medicare identification
                  numbers of providers as “provider numbers.”

                  METHODOLOGY
                  This study is based on several data sources: (1) CMS data on breaches,
                  (2) CMS breach policies and procedures, (3) CMS’s compromised number
                  database, and (4) structured interviews with CMS staff and benefit
                  integrity contractors.
                  Review of CMS Data on Breaches
                  We requested data from CMS on the number of breaches that occurred
                  between September 23, 2009 (when the Recovery Act notification
                  requirements became effective), and December 31, 2011. We considered a
                  breach committed by CMS or by any of CMS’s contractors acting in their

                  19
                     ZPICs are assuming the role formerly held by Program Safeguard Contractors. Five ZPICs
                  were operating and two zones were transitioning at the time of our review.
                  20
                     One MEDIC focuses on benefit integrity and its work consists primarily of claims analysis
                  and investigations. The other MEDIC handles compliance and enforcement issues.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                       4
                  capacity as business associates to be a CMS breach. We analyzed the data
                  to enumerate and describe the breaches known by CMS to have occurred
                  within the specified time period.
                  Review of CMS Policies and Procedures Regarding Breaches
                  We requested from CMS its policies and procedures for responding to
                  breaches. We also requested documentation on how CMS responded to
                  breaches that occurred after the Recovery Act went into effect, September
                  23, 2009, through December 31, 2011. This documentation included the
                  notifications CMS provided to affected individuals.
                  We reviewed CMS’s policies and procedures to determine how CMS
                  responds to breaches. We also reviewed the notifications CMS provided
                  to affected individuals to determine the extent to which CMS met
                  Recovery Act requirements. We determined whether the notifications
                  included a description of what happened, including the dates of both the
                  breach and its discovery; the type(s) of unsecured protected health
                  information involved; steps individuals should take to protect themselves
                  from potential harm; a description of how the covered entity is
                  investigating the breach, mitigating losses, and protecting against further
                  breaches; and contact procedures for individuals who want to learn more.
                  We also determined whether CMS provided the notifications within
                  60 days of the breaches’ discovery, as required by the Recovery Act.
                  Review of Database Containing Compromised Medicare
                  Identification Numbers
                  We requested and analyzed the database of compromised beneficiary and
                  provider numbers that CMS maintains. We reviewed the February 2012
                  version of the database.
                  Structured Interviews With CMS Staff and Benefit Integrity
                  Contractors
                  We conducted structured interviews with key CMS staff responsible for
                  developing and implementing policies and procedures regarding breaches
                  and medical identity theft. We asked how CMS identifies and responds to
                  breaches and instances of medical identity theft, including what remedies
                  are available for affected beneficiaries and providers.
                  In addition, we interviewed staff from CMS’s benefit integrity contractors
                  (five ZPICs that were operating at the time of our review and the two
                  MEDICs). We asked them how they identify and respond to instances of
                  medical identity theft involving Medicare identification numbers. We also
                  asked how they use CMS’s compromised number database. Further, we
                  inquired about remedies available to beneficiaries and providers affected
                  by medical identity theft.


CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                       5
                  Limitations
                  This study was limited to breaches known to CMS that required
                  notification under the Recovery Act. The findings are based on an
                  analysis of CMS data. We did not independently determine whether there
                  were additional breaches.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                    6
                  FINDINGS
                  CMS had 14 breaches requiring notification under the
                  Recovery Act
                  Over a 2-year period, between September 23, 2009, and December 31,
                  2011, CMS had 14 breaches that, by its own determination, required
                  notification of the affected individuals under the Recovery Act. As a
                  covered entity, CMS must provide notification if it reasonably believes the
                  information has been accessed, acquired, used, or disclosed as a result of a
                  breach. 21 CMS considers several factors when making this determination,
                  including the nature of the data elements breached and the likelihood that
                  the information is accessible and usable.
                  In general, CMS’s breaches involved beneficiaries’ names, Medicare
                  identification numbers, dates of birth, diagnoses, and services received. In
                  total, 13,775 Medicare beneficiaries were affected by the 14 breaches
                  requiring notification. One breach affected 13,412 beneficiaries. This
                  breach involved a Medicare Summary Notice printing error by a CMS
                  contractor, which caused the notices to be sent to incorrect addresses. Ten
                  breaches resulted from other mismailing or from loss of documents during
                  transit. In another two breaches, beneficiary information was posted
                  online. In the remaining breach, a CMS contractor employee was arrested
                  for stealing beneficiary information. See Table 1 for more details about
                  the 14 breaches.

                  Table 1: Breaches Requiring Notification, Reported by CMS
                  (From September 23, 2009, Through December 31, 2011)

                                                                              Number of       Number of Affected
                    Type of Breach
                                                                               Breaches           Beneficiaries

                    Medicare Summary Notice printing error                               1                   13,412

                    Beneficiary information posted online                                2                       190

                    Mismailings or loss during transit                                  10                       165

                    Stolen beneficiary information                                       1                            8

                        Total                                                           14                   13,775

                  Source: OIG analysis of CMS data on breaches requiring notification under the Recovery Act, 2012.




                  21
                       45 CFR § 164.404(a).

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                                     7
                  CMS notified beneficiaries of the breaches, but did not
                  meet several Recovery Act requirements
                  Although CMS notified all beneficiaries affected by the 14 breaches, it
                  failed to meet the Recovery Act’s standard for timeliness for 7 of them.
                  Notification letters for these breaches were not sent to the beneficiaries
                  within the timeframe dictated by the Recovery Act (without unreasonable
                  delay and in no case later than 60 days after the date of discovery). 22
                  Notifications for some breaches were sent 4 days after the 60-day
                  timeframe, while others were sent more than 4 months after the 60 days.
                  Notification letters for the largest breach were sent within the required
                  timeframe.
                  The notifications for these breaches often were missing required
                  information. Notably, the notification letters for six of the breaches did
                  not explain how the contractors were investigating the breach, mitigating
                  losses, or protecting against further breaches, as required by the Recovery
                  Act. Moreover, notification letters for half the breaches, including the
                  largest breach, were missing either the date the breach occurred or the date
                  it was discovered. Notification letters for three breaches did not include
                  the types of unsecured protected health information involved, contact
                  procedures for individuals who want to learn more, or steps individuals
                  can take to protect themselves from harm. See Table 2.


                  Table 2: CMS Breaches and Recovery Act Notification Requirements

                                                                                    Number of Breaches Not
                    Recovery Act Notification Requirement
                                                                                       Meeting Requirement

                    Notification within 60 days of breach’s discovery                                           7

                    Description of breach investigation, loss mitigation,
                                                                                                                6
                    and protection against further breaches

                    Date breach occurred or was discovered                                                      7

                    Information involved, contact procedures, or steps
                                                                                                                3
                    to protect from harm
                   Source: OIG analysis of CMS data on breaches requiring notification under the Recovery Act, 2012.




                  CMS informed HHS of all 14 breaches within the required timeframes. In
                  addition, CMS provided timely notice to the media for the largest breach,
                  as required for breaches affecting 500 or more residents of a State or
                  jurisdiction. Although this breach affected individuals in 9 States, the
                  impact was concentrated in Tennessee, which was home to over 13,000 of


                  22
                       45 CFR §§ 164.404(b) and 164.410(b).

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                                  8
                  the affected individuals. Accordingly, CMS notified media outlets in
                  Tennessee only. HHS also posted notice of the breach on its Web site.
                  However, the media notification regarding this breach neglected to include
                  steps that individuals should take to protect themselves from harm.

                  CMS has made progress in responding to medical
                  identity theft by developing a compromised number
                  database for contractors
                  Medical identity theft is the misuse of medical identifying information,
                  such as beneficiary numbers and provider numbers, to fraudulently obtain
                  or bill for medical services or supplies. CMS’s response to medical
                  identity theft has centered on maintaining a database of compromised
                  beneficiary and provider numbers. The database contains numbers that
                  have been involved in, or are suspected of having been involved in,
                  medical identity theft and those that are vulnerable to medical identity
                  theft. As of February 2012, the database contained the Medicare numbers
                  of almost 284,000 beneficiaries and 5,000 providers. The database also
                  includes classifications that indicate the level of risk associated with each
                  compromised number. Numbers are classified as high, medium, or low
                  risk. 23 The majority of the numbers in the database were classified as
                  medium risk. See Table 3 for a summary of the risk-level information in
                  the database.

                  Table 3: Compromised Numbers as Reported by CMS, by Risk Level

                                                         Medicare                 Medicare
                    Risk Level
                                                      Beneficiaries               Providers

                    High                                     56,164                    1,383

                    Medium                                  213,792                    3,547

                    Low                                      13,616                       32

                       Total                                283,572                    4,962

                  Source: OIG analysis of CMS compromised number database, February 2012 version.




                  The beneficiary and provider numbers in the database come from CMS’s
                  benefit integrity contractors. These contractors identify the numbers

                  23
                     High-risk numbers have been confirmed as compromised. For instance, a beneficiary
                  number is considered high risk if at least one inappropriate service was billed with it.
                  Numbers categorized as low risk have been identified as potentially compromised. For
                  instance, a beneficiary number is considered low risk if the beneficiary reported the loss of his
                  or her Medicare card. Medium-risk numbers are strongly suspected of having been
                  compromised.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                            9
                  through claims analysis and complaint investigations and send them to
                  CMS monthly. 24 CMS consolidates this information into a database and
                  sends it to each contractor on a compact disk once a month. CMS also
                  incorporates the database into its predictive modeling initiative. 25 The
                  goal of this initiative is to identify unusual billing activity and establish
                  risk scores to identify claims for review before payment is made.
                  Opportunities exist for improving the database’s usefulness
                  CMS has provided benefit integrity contractors with technical guidance
                  about how to submit beneficiary and provider numbers and additional
                  information to the compromised number database. However, CMS has
                  not issued guidance to contractors about how to incorporate database
                  information into their benefit integrity activities.
                  As a result, benefit integrity contractors use the database in different ways.
                  Some contractors use it to discover numbers that they did not know were
                  compromised. These contractors routinely compare all the compromised
                  numbers in the database to the beneficiary and provider numbers on
                  claims that have been submitted in their area. In contrast, one contractor
                  compares only beneficiary and provider numbers it is investigating to
                  numbers in the database. In both cases, if contractors find a match, they
                  investigate further.
                  Further, benefit integrity contractors rarely use information in the database
                  other than the numbers. In fact, one contractor was not aware that the
                  database contained other information, such as the date the number was
                  added to the database or edits associated with the number.
                  Benefit integrity contractors also noted that information can be difficult to
                  find in the database. For example, a field in the database that is supposed
                  to contain the reason that numbers were added to the database was blank
                  for 75 percent of the high-risk beneficiary numbers and 62 percent of
                  high-risk provider numbers. Knowing the reason a number is considered
                  compromised can assist contractors in their investigations.
                  Some contractors characterized the database as not user friendly. They
                  described the interface as cumbersome and ill-suited to the database’s high
                  volume of information. One contractor noted that the database seems to
                  have been designed to facilitate investigations of individual cases, whereas
                  benefit integrity contractors focus on large-scale data analysis.

                  24
                     All ZPICs are required to report information for the database. The benefit integrity MEDIC
                  began doing so in July 2010. The compliance and enforcement MEDIC is not required to
                  report information for inclusion in the database.
                  25
                     This initiative grew out of legislation that required CMS to use predictive modeling. See
                  Small Business Jobs Act of 2010, P.L. 111-240 § 4241; 42 U.S.C. § 1320a-7m.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                       10
                  Contractors also commonly noted that the database does not meet their
                  need for up-to-date data. Several said that they would like the database to
                  be available in real time, instead of being distributed monthly.
                  In addition, some contractors have concerns about the quality of the
                  information in the database. These contractors noted that they place
                  minimal weight on database information mainly because they believe that
                  other contractors’ standards for categorizing numbers differ from their
                  own.

                  CMS contractors do not consistently develop edits to
                  stop payments on compromised numbers
                  Most benefit integrity contractors cited claims processing edits as a
                  powerful tool against medical identity theft. When a contractor develops
                  an edit for a compromised beneficiary or provider number, the contractor
                  can deny claims that contain that number or identify claims for further
                  scrutiny. 26
                  Contractors vary in the extent to which they develop edits for
                  compromised numbers. They also differ in the types of edits that they
                  develop. One contractor focused its edits exclusively on provider
                  numbers. This contractor did not develop edits for beneficiary numbers at
                  all. In contrast, other contractors noted that they routinely develop edits
                  for individual beneficiary numbers. Another contractor developed only
                  autodenial edits, which automatically deny claims using predetermined
                  criteria. Other contractors make extensive use of prepay edits, which
                  identify claims for individual review prior to payment.
                  Contractors reported that they consider potential consequences when
                  deciding whether to develop edits. For instance, contractors do not want
                  to limit access to needed services for a beneficiary whose number has been
                  stolen. Taking this into account, a contractor may put edits in place for
                  certain types of services, such as durable medical equipment, but may
                  allow other services, such as emergency room visits. Another
                  consequence is that edits can conflict with criminal investigations, as
                  payment delays and claim denials can tip off fraudulent billers. Law
                  enforcement agencies might request that contractors refrain from
                  developing an edit so that law enforcement can track claims and build a
                  criminal case. In these instances, contractors can work with law
                  enforcement to come to an agreement on when to stop claim payments.



                  26
                    For Medicare Part C and Part D, private plans are responsible for developing and
                  implementing edits.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                  11
                  CMS offers some remedies to providers but fewer to
                  beneficiaries affected by medical identity theft
                  Providers and beneficiaries affected by medical identity theft are
                  susceptible to adverse financial and Medicare benefit-related
                  consequences if their numbers are misused. For example, providers can
                  be subject to tax liabilities and requests for reimbursement of Medicare
                  payments for claims that they did not submit. For beneficiaries, claims
                  resulting from the misuse of their numbers may count toward Medicare
                  caps that limit services and medical devices that they are eligible to
                  receive. For instance, outpatient therapy is subject to Medicare benefit
                  caps. 27
                  CMS has taken some steps to assist providers affected by
                  medical identity theft
                  CMS has implemented a Provider Victim Validation/Remediation
                  Initiative, which establishes protocols for assisting legitimate providers
                  who have incurred Medicare financial liabilities, such as overpayment
                  demands and tax liabilities, because of identity theft. Such situations can
                  occur, for example, if an individual with access to provider information
                  fraudulently bills Medicare and redirects Medicare payments to himself or
                  herself.
                  Providers who have suffered financial liabilities are told to contact benefit
                  integrity contractors. The contractors conduct investigations and send the
                  results to CMS. CMS then decides whether to relieve the providers of the
                  liabilities. Another remedy available to providers is the assignment of new
                  Medicare identification numbers.
                  CMS offers few remedies for beneficiaries affected by medical
                  identity theft
                  Medicare beneficiaries who suspect fraud or identity theft are encouraged
                  to call the 1-800-MEDICARE hotline. 28 Hotline representatives refer
                  suspected fraud to a benefit integrity contractor for further investigation.
                  The contractor determines whether the beneficiary number should be
                  added to the compromised number database. According to CMS officials,
                  the contractor must acknowledge to the beneficiary that the complaint was


                  27
                     CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 5, § 10.2.
                  28
                     CMS, Protecting Medicare and You from Fraud, Pub. No. 10111, October 2011, p. 5.
                  Accessed at https://www.medicare.gov/Publications/Pubs/pdf/10111.pdf on June 21, 2012.
                  Also, OIG has created a brochure containing tips on how to avoid medical identity theft and
                  instructions for reporting Medicare fraud and medical identity theft. Accessed at
                  http://oig.hhs.gov/fraud/medical-id-theft/OIG_Medical_Identity_Theft_Brochure.pdf on
                  June 21, 2012.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                           12
                  received but does not provide details to beneficiaries when a case is under
                  investigation.
                  Beneficiaries with compromised numbers are not routinely assigned new
                  numbers. Several benefit integrity contractors expressed a desire for CMS
                  to terminate and issue new beneficiary numbers, citing the credit card
                  industry as a model. According to most contractors, new beneficiary
                  numbers would minimize the damage caused by medical identity theft.
                  One contractor noted that assigning new numbers would greatly assist
                  beneficiaries because resolving issues associated with a compromised
                  number can be time consuming and financially draining for the
                  beneficiaries.
                  One obstacle to assigning new numbers is that beneficiary numbers are
                  linked to Social Security numbers. The Social Security Administration
                  OIG has encouraged CMS to eliminate Social Security numbers from
                  beneficiaries’ Medicare numbers. 29 CMS officials, however, have cited
                  high costs, the volume of changes, and operational and systems issues as
                  barriers to altering beneficiary numbers. 30
                  Further, there is no standard procedure for ensuring that beneficiaries
                  retain their access to services if their Medicare numbers have been
                  misused by others. If a beneficiary’s number is misused, a claim for a
                  service or an item resulting from the misuse is included in the
                  beneficiary’s Medicare billing history. This could delay or prevent
                  beneficiaries from receiving needed services, particularly when these
                  services are subject to a cap.




                  29
                     Social Security Administration OIG, Removing Social Security Numbers from Medicare
                  Cards, A-08-08-18026, May 2008.
                  30
                     Part C and Part D plans generate their own identification numbers for enrollees that are
                  different from the Social Security numbers.

CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                                           13
                  CONCLUSION AND RECOMMENDATIONS
                  As the single largest health care payer in the United States, CMS plays a
                  critical role in addressing breaches of protected health information and
                  medical identity theft. Breaches and medical identity theft put
                  beneficiaries, providers, and the Medicare Trust Funds at risk. If CMS
                  does not follow the requirements for handling breaches, opportunities
                  increase for medical identity theft and fraudulent billing of the Medicare
                  program.
                  CMS reported that it had 14 breaches requiring notification under the
                  Recovery Act between September 23, 2009, and December 31, 2011.
                  CMS notified the 13,775 beneficiaries affected by the breaches, but did
                  not meet several Recovery Act requirements.
                  CMS has made progress in responding to medical identity theft by
                  developing a compromised number database for contractors. However,
                  the database’s usefulness could be improved. CMS has not issued
                  guidance to contractors about how to incorporate database information
                  into their benefit integrity activities, and as a result, contractors use the
                  database in different ways. Also, contractors do not consistently develop
                  edits to stop payments on compromised numbers. Lastly, CMS offers
                  some remedies to providers but fewer to beneficiaries affected by medical
                  identity theft.
                  We recommend that CMS:
                  Ensure That Breach Notifications Meet Recovery Act
                  Requirements
                  CMS should ensure that breach notifications are sent within the required
                  timeframe and include the required information. Notifications must
                  include a description of how CMS is investigating the breach, mitigating
                  losses, and protecting against further breaches. They must also include a
                  description of what happened, the type of information involved, steps
                  individuals should take to protect themselves, and contact procedures for
                  individuals who want to learn more.
                  Improve the Compromised Number Database
                  CMS should solicit input from the benefit integrity contractors and
                  improve the completeness and quality of the database. CMS should also
                  make the database more user friendly, moving away from monthly
                  mailings to a system that would allow for timelier reporting and access.
                  Improving the database would enable contractors to use it more
                  extensively to better detect and deter medical identity theft.




CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                          14
                  Provide Guidance to Contractors About Using Database
                  Information and Implementing Edits
                  We recognize that CMS uses database information in its predictive
                  modeling initiative. In addition, CMS should provide guidance to
                  contractors about how to incorporate database information into their
                  benefit integrity activities. CMS should also provide contractors with
                  protocols for developing edits for compromised numbers. These protocols
                  should outline the circumstances that warrant edits and the types of edits
                  that are most appropriate for compromised provider and beneficiary
                  numbers. These protocols could help promote consistent use of edits
                  across contractors.
                  Develop a Method for Ensuring That Beneficiaries Who Are
                  Victims of Medical Identity Theft Retain Access to Needed
                  Services
                  CMS should mitigate the damage of medical identity theft by ensuring that
                  beneficiaries retain their access to services if their Medicare numbers have
                  been misused by others. Misuse of a beneficiary’s number could delay or
                  prevent that beneficiary from receiving needed services, particularly when
                  the services are subject to a cap. CMS could insert an indicator in the
                  beneficiary claim record that would exclude certain claims from frequency
                  and utilization edits, allowing for payment of legitimate claims for victims
                  of medical identity theft. CMS could also develop other methods for
                  providing assurances and documentation to these beneficiaries that their
                  access to services will not be restricted as a consequence of the theft.
                  Develop a Method for Reissuing Identification Numbers to
                  Beneficiaries Affected by Medical Identity Theft
                  The issuance of new Medicare beneficiary numbers is complex. We
                  recognize that there is no easy solution to this problem, given that
                  beneficiaries’ Medicare numbers currently are linked to their Social
                  Security numbers. However, CMS should explore different options and
                  then develop a method for reissuing Medicare numbers to beneficiaries
                  affected by medical identity theft.




CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                       15
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with four of the five recommendations in the draft report.
                  With regard to the first recommendation, CMS concurred and stated that it
                  will develop new procedures and/or modify existing ones to improve the
                  breach notification process. With regard to the second recommendation,
                  CMS concurred and is working with system users to both identify
                  improvements to design a more user-friendly database and add critical
                  information about each compromised number to support fraud detection
                  efforts. CMS is also developing a Web-based interface that will allow
                  direct access by users. CMS also concurred with our third
                  recommendation and stated that it has issued instructions and guidance to
                  contractors regarding updating, entering, and redefining entries in the
                  database. Also, CMS intends to share edit development best practices for
                  compromised numbers and issue edit development protocols.
                  CMS did not concur with the fourth recommendation in the draft report to
                  correct beneficiary billing histories. CMS cited concerns that changing
                  billing records could negatively impact criminal and civil prosecutions and
                  the integrity of the Medicare claims processing system. However, CMS
                  stated that it will consider the insertion of an indicator on the beneficiary
                  claim record that would allow for payment of legitimate claims for victims
                  of medical identity theft. In response, we modified the fourth
                  recommendation to include CMS's comments and to focus on developing
                  a method for ensuring that beneficiaries who are victims of medical
                  identity theft retain access to needed services.
                  Finally, CMS concurred with the fifth recommendation and noted that
                  making the necessary changes to allow CMS to reissue identification
                  numbers for beneficiaries will require significant monetary investments
                  and multiple systems and operational changes for CMS, its contractors, the
                  Social Security Administration, State Medicaid programs, private health
                  plans, and providers. CMS stated it is reviewing options and cost
                  estimates for developing an identification number that is not based on the
                  Social Security number.
                  The full text of CMS’s comments is provided in the appendix.




CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                        16
                                APPENDIX 


                                Agency Comments

    ,..
    _.llo'Si•"l('~   ,.,
  ( : : / - DEPAR1MENT OF HEALTH & HUMAN SERVICES                                                     Cenlers for Medicare & Medicaid Services


                                                                                                      Administrator
                                                                                                      Washinglon, DC 20201




                           DATE:        AUG 2 7 2012
                           TO: 	         Daniel R. Levinson
                                         Inspector General

                           FROM: 	       MaRTyn T.Aen1rol'
                                                              /S/
                                         Acting Ad'mlllistrator

                           SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "CMS Response to Breaches and
                                         Medical Identity Theft" (OEJ-02-1 0-000040)


                           The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                           comment on the OIG Draft Report entitled, "CMS Response to Breaches and Medical Identity
                           Theft" (OEI-02-10-000040). The objectives of this study are to determine the extent to which
                           CMS' response to breaches of beneficiaries' protected health information met the notification
                           requirements in the American Recovery and Reinvestment Act of 2009 (the Recovery Act) and
                           to assess CMS's response to medical identity theft involving beneficiary and provider Medicare
                           identification numbers. as well as the remedies it offers to beneficiaries and providers.

                           The OIG examined the 14 breaches requiring notification under the Recovery Act between
                           September 23, 2009 and December 31, 2011 . The report indicates that CMS did notify the
                           13,775 Medicare beneficiaries affected by ·the breaches, but did not meet several Recovery Act
                           requirements. OIG also reports that CMS has made progress in responding to medical identity
                           theft by developing a compromised number database for contractors, but improvements are
                           needed to increase database utility and improve edit development designed to stop payments.
                           Lastly, OIG acknowledges that CMS offers some remedies to providers but fewer to
                           beneficiaries affected by medical identity theft.

                           The CMS appreciates OIG's efforts in working with our agency to help ensure that health
                           information of Medicare beneficiaries is protected. CMS' response to each of the OIG
                           recommendations follows.

                           OIG Recommendation 1

                           The CMS should ensure that breach notifications meet Recovery Act Requirements.

                           CMS Response

                           The CMS concurs with this recommendation. Our policy and procedures reflect the Recovery
                           Act's breach notification provisions. To ensure breach notifications are sent within the required




CMS Response to Breaches and Medical Identity Theft (OEI-02-1 0-00040)                                                                           17
CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)   18
CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)   19
CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)   20
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Jodi Nudelman, Regional
                  Inspector General for Evaluation and Inspections in the New York regional
                  office.
                  Deputy Regional Inspector General Nancy Harrison served as the team
                  leader for this study. Other Office of Evaluation and Inspections staff
                  from the New York regional office who conducted the study include Rose
                  Goldberg, Olivia Herman, Jennifer Karr, and Michael Rubin. Central
                  office staff who provided support include Scott Horning, Kevin Manley,
                  Debra Roush, Tasha Trusty, and Rita Wurm.




CMS Response to Breaches and Medical Identity Theft (OEI-02-10-00040)                    21
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
